<html>
<title> - REVIEWING RECENT CHANGES TO OSHA'S SILICA STANDARDS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   REVIEWING RECENT CHANGES TO OSHA'S
                            SILICA STANDARDS

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 19, 2016

                               __________

                           Serial No. 114-46

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
  
  

                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
                               ____________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
99-775 PDF                      WASHINGTON : 2016                          
                               
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a>  
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                
                              ---------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                    TIM WALBERG, Michigan, Chairman

Duncan Hunter, California            Frederica S. Wilson, Florida,
Glenn Thompson, Pennsylvania           Ranking Member
Todd Rokita, Indiana                 Mark Pocan, Wisconsin
Dave Brat, Virginia                  Katherine M. Clark, Massachusetts
Michael D. Bishop, Michigan          Alma S. Adams, North Carolina
Steve Russell, Oklahoma              Mark DeSaulnier, California
Elise Stefanik, New York             Marcia L. Fudge, Ohio
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 19, 2016...................................     1

Statement of Members:
    Walberg, Hon. Tim, Chairman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     3
    Wilson, Hon. Frederica S., Ranking Member, Subcommittee on 
      Workforce Protections......................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Brady, Mr. Ed, President, Brady Homes of Illinois, 
      Bloomington, IL............................................    22
        Prepared statement of....................................    24
    Chajet, Mr. Henry, Shareholder, Jackson Lewis P.C., Reston, 
      VA.........................................................    57
        Prepared statement of....................................    59
    Herschkowitz, Ms. Janis, President and CEO, PRL Inc., 
      President, Regal Cast, Lebanon, PA.........................    36
        Prepared statement of....................................    38
    Melius, Dr. James, Director of Research, Laborers' Health and 
      Safety Fund of North America, Albany, NY...................    45
        Prepared statement of....................................    47

Additional Submissions:
    Mr. Chajet:
        Silicosis: Number of deaths, crude and age-adjusted death 
          rates, U.S. residents age 15 and over, 1968-2010, 
          source: NIOSH (CDC), September 11, 2014................   106
    DeSaulnier, Hon. Mark, a Representative in Congress from the 
      State of California:
        Control of Silica Exposure in Foundries..................    79
    Ms. Herschkowitz:
        OSHA Fact Sheet..........................................    70
    Mr. Walberg:
        Regulatory Report from U.S. Chamber of Commerce entitled 
          Regulatory Indifference Hurts Vulnerable Communities...   108
        Article from The Hill: Regular dust monitoring can help 
          prevent silicosis - not more regulation................   136
        Prepared statement from The National Stone, Sand and 
          Gravel Association (NSSGA).............................   137
        Letter dated April 19, 2016, from The Associated General 
          Contractors (AGC) of America...........................   141
        Letter dated April 28, 2016, from National Industrial 
          Sand Association (NISA)................................   143
    Ms. Wilson:
        Prepared statement from Brown, Mr. Tim...................    18
        Prepared statement from McNabb, Mr. Dale.................    11
        Prepared statement from Ward, Mr. Tom....................    15
        Letter dated April 18, 2016, from United Steelworkers USW    84
        Letter dated April 19, 2016, from BlueGreen Alliance.....    86
        Letter dated April 19, 2016, from Public Citizen.........    88
        Letter dated April 18, 2016, from American Association 
          for Justice............................................    90
        Press release dated March 24, 2016, from American Public 
          Health Association (APHA) celebrates OSHA silica rule..    92
        Letter dated April 18, 2016, from Englewood Construction 
          - Management...........................................    94
        Letter dated April 19, 2016, from Motley Rice LLC........    95
        Prepared statement from America's Agenda.................    97
        Prepared statement from International Union of 
          Bricklayers and Allied Craftworkers....................   101
        Prepared statement from USW Local Union 593..............   147
        Prepared statement from Union of Concerned Scientists....   150
        Prepared statement from North America's Building Trades 
          Unions.................................................   153

 
          REVIEWING RECENT CHANGES TO OSHA'S SILICA STANDARDS

                              ----------                              


                        Tuesday, April 19, 2016

                     U.S. House of Representatives

                Committee on Education and the Workforce

                 Subcommittee on Workforce Protections

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Tim Walberg 
[Chairman of the subcommittee] presiding.
    Present: Representatives Walberg, Rokita, Brat, Bishop, 
Wilson, Pocan, Adams, and DeSaulnier.
    Also Present: Representatives Kline and Scott.
    Staff Present: Bethany Aronhalt, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Ed 
Gilroy, Director of Workforce Policy; Jessica Goodman, 
Legislative Assistant; Callie Harman, Legislative Assistant; 
Tyler Hernandez, Deputy Communications Director; Nancy Locke, 
Chief Clerk; John Martin, Professional Staff Member; Dominique 
McKay, Deputy Press Secretary; Krisann Pearce, General Counsel; 
Molly McLaughlin Salmi, Deputy Director of Workforce Policy; 
Alissa Strawcutter, Deputy Clerk; Loren Sweatt, Senior Policy 
Advisor; Olivia Voslow, Staff Assistant; Joseph Wheeler, 
Professional Staff Member; Tylease Alli, Minority Clerk/Intern 
and Fellow Coordinator; Austin Barbera, Minority Press 
Assistant; Pierce Blue, Minority Labor Detailee; Denise Forte, 
Minority Staff Director; Christine Godinez, Minority Staff 
Assistant; Carolyn Hughes, Minority Senior Labor Policy 
Advisor; Brian Kennedy, Minority General Counsel; Richard 
Miller, Minority Senior Labor Policy Advisor; Veronique 
Pluviose, Minority Civil Rights Counsel; Marni von Wilpert, 
Minority Labor Detailee; and Elizabeth Watson, Minority 
Director of Labor Policy.
    Chairman Walberg. A quorum being present, the subcommittee 
will come to order. Good morning, everyone. I would like to 
begin by welcoming our witnesses. Thank you for joining us to 
discuss an issue important to everyone in this room, protecting 
the health and safety of American workers.
    We are here today because we all agree that hard-working 
men and women should be able to earn a paycheck without risking 
a serious injury or being exposed to a deadly disease. Every 
family deserves the peace of mind that their loved ones are 
safe on the job. We also agree that Federal policies play a 
role in meeting that shared goal.
    This hearing is timely because next week marks 45 years 
that the Occupational Safety and Health Administration has 
helped keep American workers safe. As part of this Committee's 
oversight efforts, we were pleased to have Assistant Secretary 
Michaels join us last October to discuss what more can be done 
to promote safe and healthy working conditions.
    The question before the Committee then and today is whether 
the workplace rules and regulations coming out of Washington 
serve the best interests of employees and their employers. Are 
they practical? Are they responsible? Are they fair? Are they 
created with transparency and enforced effectively?
    These are important questions because the strongest health 
and safety rules will do little to protect America's workers if 
the rules are not followed and enforced, or if they are too 
confusing and complex to even implement in the first place.
    I hope we have a thoughtful discussion today that addresses 
these points, particularly as they relate to OSHA's new silica 
standard.
    In March, OSHA issued a final rule that significantly 
reduces the permissible exposure limit to crystalline silica. 
Silica is the second most common element found in the Earth's 
crust and a key component of manufactured products and 
construction materials. Exposure to high concentrations of 
silica dust can lead to a dangerous debilitating and even life-
threatening disease. We have witnessed important progress in 
recent years, but we know there is more that can be done to 
keep workers out of harm's way.
    That is why this Committee has pressed OSHA to use the 
tools at its disposal to enforce existing standards. 
Unfortunately, the agency has failed to do so. OSHA itself 
admits that 30 percent of tested job sites have not complied 
with the existing exposure limit for silica. The existing 
exposure limit for silica. Did I mention it was the existing 
exposure limit for silica?
    This is an alarmingly high figure. Instead of enforcing the 
rules already on the books, the department spent significant 
time and resources crafting an entirely new regulatory regime. 
The department's first priority should have been enforcing 
existing standards, and some potentially in the room today may 
question whether these rules were followed and if indeed, as a 
result of not being enforced across the board, they experienced 
the results of silicosis.
    If OSHA is unable or unwilling to enforce the current limit 
for silica exposure, why should we expect the results under 
these new standards to be any different?
    Related to enforcement, some have raised concerns about 
whether the new standards can be responsibly enforced. It has 
been suggested that silica cannot be accurately measured at the 
reduced limit prescribed in the new law or new rule because 
many labs do not have the technology necessary to provide 
reliable results.
    Will employers acting in good faith and trying to do the 
right thing be held accountable for an enforcement regime that 
is not feasible or practical?
    These are important questions about enforcement, but there 
are also serious questions concerning implementation. Can these 
new rules be effectively implemented on the ground and under 
the time frame prescribed by OSHA? Employers may lack the time 
and resources necessary to adjust their workplaces to the 
requirements of the new rule. Others may find new controls 
simply unworkable. This is especially true for small 
businesses.
    According to the National Federation of Independent 
Business, this rule will cost workplaces more than $7 billion 
each year. These costs will be borne by consumers and 
taxpayers, and may I suggest employees with a loss of jobs or 
loss of security in their jobs. They will be borne by all of 
these people in the form of higher prices for homes, bridges, 
roads, et cetera. These costs will be borne by workers in the 
form of fewer jobs. These are significant consequences for a 
rule that may do little to enhance worker health and safety, 
which is our key priority.
    Hundreds of thousands of workplaces nationwide will be 
impacted by these new rules. We owe it to our Nation's job 
creators to provide the clarity and certainty they need to 
expand, hire, and succeed.
    Just as importantly, we owe it to workers and their 
families to promote smart, responsible regulatory policies that 
are implemented and enforced in a way that serves their best 
interests. The workers with us today, and those working on 
countless job sites across the country deserve more than our 
good intentions and political rhetoric at times. They deserve 
good policies that lead to good results.
    I know that we can work together to protect their health 
and well-being. It has happened here. It has happened here 
before and it can happen now, the well-being of hard-working 
men and women of this country.
    I look forward to today's discussion, and will now yield to 
Ranking Member Wilson for her opening remarks.
    [The statement of Chairman Walberg follows:]

   Prepared Statement of Hon. Tim Walberg, Subcommittee on Workforce 
                              Protections

    We're here today because we all agree that hardworking men and 
women should be able to earn a paycheck without risking a serious 
injury or being exposed to a deadly disease. And every family deserves 
the peace of mind that their loved ones are safe on the job.
    We also agree that federal policies play a role in meeting that 
shared goal. This hearing is timely, because next week marks 45 years 
that the Occupational Safety and Health Administration has helped keep 
America's workers safe. As part of this committee's oversight efforts, 
we were pleased to have Assistant Secretary Michaels join us last 
October to discuss what more can be done to promote safe and healthy 
working conditions.
    The question before the committee then and today is whether the 
workplace rules and regulations coming out of Washington serve the best 
interests of employees and their employers. Are they practical, 
responsible, and fair? Are they created with transparency and enforced 
effectively?
    These are important questions, because the strongest health and 
safety rules will do little to protect America's workers if the rules 
are not followed and enforced--or if they're too confusing and complex 
to even implement in the first place. I hope we can have a thoughtful 
discussion today that addresses these points, particularly as they 
relate to OSHA's new silica standard.
    In March, OSHA issued a final rule that significantly reduces the 
permissible exposure limit to crystalline silica. Silica is the second 
most common element found in the Earth's crust, and a key component of 
manufactured products and construction materials. But exposure to high 
concentrations of silica dust can lead to a dangerous, debilitating--
and even life-threatening--disease. We have witnessed important 
progress in recent years, but we know there's more that can be done to 
keep workers out of harm's way.
    That is why this committee has pressed OSHA to use the tools at its 
disposal to enforce existing standards. Unfortunately, the agency has 
failed to do so.
    OSHA itself admits that 30 percent of tested jobsites have not 
complied with the existing exposure limit for silica. This is an 
alarmingly high figure. But instead of enforcing the rules already on 
the books, the department spent significant time and resources crafting 
an entirely new regulatory regime.
    The department's first priority should have been enforcing existing 
standards. If OSHA is unable--or unwilling--to enforce the current 
limit for silica exposure, why should we expect the results under these 
new standards to be any different?
    Related to enforcement, some have raised concerns about whether the 
new standards can be responsibly enforced. It has been suggested that 
silica cannot be accurately measured at the reduced limit prescribed in 
the new rule, because many labs don't have the technology necessary to 
provide reliable results. Will employers--acting in good faith and 
trying to do the right thing--be held accountable for an enforcement 
regime that isn't feasible or practical?
    These are important questions about enforcement, but there are also 
serious questions concerning implementation. Can these new rules be 
effectively implemented on the ground and under the timeframe 
prescribed by OSHA? Employers may lack the time and resources necessary 
to adjust their workplaces to the requirements of the new rule. Others 
may find new controls simply unworkable.
    This is especially true for small businesses. According to the 
National Federation of Independent Business, this rule will cost 
workplaces more than $7 billion each year. These costs will be borne by 
consumers and taxpayers in the form of higher prices for homes, 
bridges, and roads. And these costs will be borne by workers in the 
form of fewer jobs. These are significant consequences for a rule that 
may do little to enhance worker health and safety.
    We are fortunate to have a second-generation home builder and owner 
of a small family business with us who can speak more to this today. 
They will also speak to the fear of unintended safety consequences 
stemming from these new rules. In trying to address significant health 
and safety concerns, we must ensure federal policies do not in any way 
create new hazards in America's workplaces.
    Hundreds of thousands of workplaces nationwide will be impacted by 
these new rules. We owe it to our nation's job creators to provide the 
clarity and certainty they need to expand, hire, and succeed. And, just 
as importantly, we owe it to workers and their families to promote 
smart, responsible regulatory policies that are implemented and 
enforced in a way that serves their best interests. The workers with us 
today--and those working on countless jobsites across the country--
deserve more than our good intentions, they deserve good policies that 
lead to good results.
    I know that we can work together to protect the health and well-
being of the hardworking men and women of this country. I look forward 
to today's discussion, and will now yield to Ranking Member Wilson for 
her opening remarks.
                                 ______
                                 
    Ms. Wilson. Mr. Chairman, thank you for holding this 
hearing today to review OSHA's long-awaited rule updating the 
silica standard. The science is clear. Since 1974, the National 
Institute for Occupational Safety and Health has called for 
OSHA to cut the permissible exposure limit for general industry 
from 100 micrograms per cubic meter to 50. It took 42 years for 
OSHA's rule to catch up with the science.
    In 1997, the World Health Organization's International 
Agency for Research on Cancer determined crystalline silica 
dust is causing damage to humans. The Department of Health and 
Human Services declared the same in 2000.
    Silica dust causes silicosis, lung cancer, respiratory 
illnesses, such as COPD, and kidney disease. Yet, scientific 
research demonstrates OSHA's previous 40-year-old silica 
standard fails to adequately protect workers from these 
preventable diseases. Let me repeat, preventable. These 
diseases are preventable.
    Extensive scientific evidence shows lung cancer and 
silicosis occur at exposure levels below OSHA's previous 
permissible exposure limit of 100 micrograms per cubic meter in 
general industry.
    Surprisingly, the alarmingly out-of-date construction 
industry standard of 250 micrograms per cubic meter stems from 
a 1929 Public Health Service recommendation that the government 
acknowledged was not set at a level to protect workers from 
silicosis, but rather based solely on feasibility 
considerations of 1920s' technology and management methods.
    OSHA's new silica dust standard reflects current science 
and technology. It will save lives. Over 800,000 construction 
workers and another 295,000 workers in general industry and 
maritime are exposed to crystalline silica in excess of the new 
more protective standard of 50 micrograms per cubic meter.
    OSHA estimates this new standard, which includes 
engineering controls, training, prohibitions on dry sweeping, 
and medical surveillance, will save more than 600 lives each 
year, and prevent more than 900 cases of silicosis each year.
    I just want to show here on the screen pictures of airborne 
silica. This is dust generated by a power saw cutting through 
concrete block with and without engineering controls. All it 
takes is water or air to control silica dust. These pictures 
make it abundantly clear how using simple controls reduces 
workers' exposure to silica dust, but useful statistics and the 
pictures fail to communicate the true toll on affected workers 
and their families.
    This includes workers like Dale McNabb, Tom Ward, and Tim 
Brown, who have submitted statements for the record. I ask 
unanimous consent to include the statements of Mr. McNabb, Mr. 
Ward, and Mr. Brown into the record.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Walberg. Hearing no objection, they will be 
included.
    Ms. Wilson. Dale McNabb, who has joined us here today, is a 
tile setter from Warren, Michigan, and a member of Bricklayers 
Local Number 2 in Michigan. In his statement, Dale recounts his 
exposure to silica dust while working as a tile helper mixing 
cement and making cuts. After Dale started wheezing, he went to 
doctors who confirmed his respiratory problems were caused by 
silica exposure.
    Dale writes, ``I loved my job, and I took a lot of pride in 
my work. I would still be doing it today if my doctors had not 
told me I could not, and that I might never work again because 
I breathed in silica dust. When I get exposed to dust now, and 
not just silica dust, it feels like I have a plastic bag over 
my head, and someone is pulling it shut.''
    Also, with us today is Tom Ward. Raise your hand, Tom. Tom 
is a bricklayer from Detroit, Michigan. At 13, Tom lost his 
father to silicosis. In his statement, Tom shares this painful 
story. Tom writes, ``We got the official diagnosis, silicosis, 
when my dad was 34 years old. The hardest memory to live with 
is the last day he worked. He came in the door, fell to the 
floor, and started crying. He said I cannot do it anymore. It 
took just five years for silicosis to kill him. It was a slow 
and very painful process for my dad to experience at far too 
young an age, 34 years old. It was hard for me, my sisters, and 
my mother to witness. In the end, his disease actually 
suffocated him.''
    Tom, who is himself a construction worker exposed to silica 
dust, remains stunned at the lack of training on and awareness 
of the dangers of silica dust, and the inconsistent use of 
engineering controls and personal protective equipment.
    We are also joined by Tim Brown. Raise your hand, Tim. Tim 
is a bricklayer from Milwaukee, and a member of Bricklayers 
Local 8, who has worked in dust-producing trades his entire 
life. In his statement, Tim recounts the lack of proper 
engineering controls on worksites and his eventual diagnosis of 
silicosis.
    Tim writes, ``I have a six-year-old daughter. She knows I 
am sick, and she worries about me. She does not want me to 
return to construction, but I am not sure how to provide for 
her if I cannot.''
    Dale, Tom, and Tim have testified in support of the new 
OSHA standards so that others would not go through what they 
have endured. As we deliberate today, Mr. Chairman, I hope that 
we can keep in mind what these and so many other hard-working 
Americans faced because OSHA's silica standards were not 
protective enough.
    The 2.3 million workers, mostly in construction, who will 
gain protection under OSHA's updated rule deserve our support.
    I want to thank our witnesses for being here today, and 
look forward to their testimony. I want to thank the 50 members 
of the International Union of Bricklayers and Allied 
Craftworkers who have also joined us here today. Raise your 
hands. Welcome. You are our constituents. This is your 
committee, Workforce Protections, and that is our job.
    Thank you, Mr. Chair.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Walberg. I thank the gentlelady. Pursuant to 
Committee Rule 7(c), all subcommittee members will be permitted 
to submit written statements to be included in the permanent 
hearing record. Without objection, the hearing will remain open 
for 14 days to allow statements, questions for the record, and 
other extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    It is now my pleasure to introduce today's witnesses. Mr. 
Ed Brady is president of Brady Homes of Illinois in 
Bloomington, Illinois. Mr. Brady serves as NAHB's 2016 chairman 
of the board.
    Brady Homes is a family-owned, second-generation building 
and development company founded by his father, William Brady. 
Mr. Brady will also testify on behalf of the National 
Association of Home Builders. Welcome.
    Janis Herschkowitz is president and CEO of PRL Inc., a 
family-owned, second-generation company located in Lebanon, 
Pennsylvania. She is also president of Regal Cast, an operating 
company under PRL Inc., that manufactures high-quality 
specification metal castings, fabrications, and metal casting 
machine components to the defense, nuclear, and energy 
industries. Ms. Herschkowitz will also testify on behalf of the 
American Foundry Society. Welcome.
    Dr. Jim Melius is the director of research for the 
Laborers' Health and Safety Fund of North America. Dr. Melius 
is an occupational physician and epidemiologist. He spent 
several years directing occupational and environmental health 
programs for the National Institute for Occupational Safety and 
Health, and for the New York State Department of Health. 
Welcome.
    Finally, Henry Chajet, a shareholder in the Washington, 
D.C., regional office of Jackson Lewis, P.C., will testify on 
behalf of the U.S. Chamber of Commerce. Mr. Chajet is well-
versed in environmental safety and health law involving Federal 
entities such as OSHA, MSHA, and EPA. Welcome.
    I will now ask our witnesses to stand and raise your right 
hands.
    [Witnesses sworn.]
    Chairman Walberg. You may be seated. Let the record reflect 
the witnesses answered in the affirmative, and we appreciate 
that.
    Before I recognize you for your testimony, let me briefly 
explain our lighting system, very simple, like the traffic 
lights on the roadway. You have five minutes to testify. Keep 
it as close that as humanly possible. If it comes to the end of 
the time and you have a finishing sentence or paragraph, go 
ahead and do that. You will each have five minutes to present. 
When you see the yellow light go on, that means you have a 
minute left in your testimony time. The red light, you know 
what that means.
    After you testify, the members will have five minutes each 
to ask questions as well. We will attempt to keep that as well 
to five-minute questioning so we can get through as much as 
possible this morning in the hearing time.
    So, now it is time to recognize the witnesses for their 
five minutes of testimony. Mr. Brady, I recognize you now for 
five minutes.

    TESTIMONY OF ED BRADY, PRESIDENT, BRADY HOMES ILLINOIS, 
     BLOOMINGTON, IL, TESTIFYING ON BEHALF OF THE NATIONAL 
                  ASSOCIATION OF HOME BUILDERS

    Mr. Brady. Thank you, Chairman Walberg, Ranking Member 
Wilson, members of the Committee. On behalf of the 140,000 
members of the National Association of Home Builders, I 
appreciate the opportunity to testify here today.
    OSHA's new silica rule is the most significant health and 
safety standard ever issued for the construction industry. 
Throughout the rulemaking process, NAHB sought to engage with 
OSHA to create a workable rule which protects our workers. 
Unfortunately, OSHA failed to address many of the industry 
concerns, and the final rule reflects a fundamental lack of 
understanding of construction and is technologically and 
economically infeasible.
    We strongly urge OSHA to revisit the rule and work with us 
to create a new rule that protects workers while also balancing 
the technological and economic challenges in the residential 
construction sector. Absent that, Congress must move swiftly to 
stop this flawed rule.
    OSHA's new silica standard requires a staggering 80 percent 
reduction in the permissible exposure limit, or PEL, for the 
construction industry. To achieve this dramatically lower PEL, 
OSHA has concocted an aggressive compliance regime of 
engineering and work practice controls that in many cases 
cannot be applied in residential construction.
    If this rule goes into effect, we will have two options to 
comply. The first option is to measure the amount of silica a 
worker is exposed to. This is incredibly challenging to do in 
the field where multiple workers may be performing multiple 
tasks and where many environmental factors play a significant 
role.
    Employers would need to track individual employees and 
would be required to pay for the worker to receive a thorough 
medical checkup, even though the medical checkup and the 
results will not tell what tasks or even on which jobsite 
might, and I emphasize ``might'' be contributing to the 
potential health problems.
    The second option is for employers to follow the 
engineering and work practice control requirements in Table 1. 
Unfortunately, these requirements are often impractical and at 
times impossible to implement in the field.
    For example, Table 1 relies heavily on wet cutting methods. 
That seems simple, but, frankly, we might not even have water 
service to the jobsite for weeks or possibly months after the 
job starts. Wet cutting is also impractical indoors, adding 
water to an indoor environment, and during the winter months, 
can unrealistically or could potentially create even greater 
hazards outdoors.
    It is also important to consider the economic impact of 
this rule on the construction industry. OSHA estimates that the 
total costs of the final rule are just over $1 billion 
annually. This estimate drastically underestimates the impact 
this rule will have on our industry.
    An independent analysis of the rule, which NAHB helped 
fund, estimated the true cost at nearly $5 billion. Residential 
construction's share of this cost means nearly 25 percent of 
the profits for the industry would be consumed by this single 
rule.
    You might have a notion that homebuilders have high profit 
margins. The reality is the typical margin is around 6.4 
percent. I raise this point because OSHA's guidelines for 
justifying a new rule is the cost should be no more than 10 
percent of the industry's profits. They missed the mark here.
    To see how far they are off, let's look quickly at the 
health screening I mentioned earlier. OSHA estimates the 
screening will run at least $377 per test, each. There are 3.2 
million construction workers. If each construction employee 
required one screening per year, that cost alone would be 
roughly $1.2 billion a year.
    OSHA also severely underestimated other compliance costs. 
Most of our members at NAHB are small firms, family businesses, 
and do not have the expertise to comply with some of the 
requirements of the rule. Many will need to contract for the 
services of recordkeeping. OSHA's economic analysis identifies 
just over 477,000 affected businesses in the construction 
industry. If you assume a minimal cost of routine bookkeeping 
services at $200 a month, it would work out to $1.1 billion per 
year just for the recordkeeping compliance.
    We feel that OSHA simply failed to account for the true 
costs of these expenses in their economic analysis.
    Let me be clear. NAHB joins OSHA in its stated goal of 
reducing workplace illnesses and injuries. The debate is not 
over whether to protect our workers, but how best to protect 
our workers.
    I urge Congress to consider ways to forestall the 
implementation of this deeply flawed rule until OSHA has 
revisited the potential burden this rule will put on small 
businesses.
    I thank you for the opportunity to share my views, Mr. 
Chairman.
    [The statement of Mr. Brady follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Walberg. Thank you, Mr. Brady. I recognize Ms. 
Herschkowitz for your five minutes of testimony.

TESTIMONY OF JANIS HERSCHKOWITZ, PRESIDENT AND CEO OF PRL INC., 
PRESIDENT, REGAL CAST, LEBANON, PA, TESTIFYING ON BEHALF OF THE 
                    AMERICAN FOUNDRY SOCIETY

    Ms. Herschkowitz. Thank you, Chairman Walberg, Ranking 
Member Wilson, and members of the subcommittee. Thank you for 
the opportunity to discuss OSHA's recently published silica 
rule and its detrimental impact on the U.S. metal casting 
industry.
    My name is Jan Herschkowitz, president of PRL, Inc. My 
family moved to the States from Bolivia in 1971 to pursue the 
American dream. My father purchased a small company with 13 
employees, which he eventually grew to three companies. In 
1988, I moved back to Pennsylvania from Chicago to run the 
family business after he was diagnosed with cancer. Following 
his death in 1989, I opened a foundry which is one of the 
cleanest and most advanced foundries in the U.S.
    Today, we have four manufacturing facilities, are a key 
military supplier, and proudly employ 150 highly skilled 
workers who play a vital role in our success.
    I am testifying before you today as a member of the 
American Foundry Society, our industry's trade association, 
which is comprised of more than 7,500 members.
    Our industry employs over 200,000 workers who are proud 
that their metal castings have applications in virtually every 
capital and consumer good produced. Eighty percent of all 
foundries employ fewer workers than 100, including ours.
    As a Nation, we depend on castings in all facets of our 
lives, including transportation, heating our homes, and, most 
importantly, providing us with power, and playing a critical 
role in our Nation's defense, including submarines and 
carriers. PRL's key customers include Electric Boat, Northrop-
Grumman, and Curtiss-Wright.
    AFS members are highly committed to protecting their 
employees and implementing sound safety policies. PRL's culture 
is one of safety first above all else, as the risks of pouring 
molten metal are taken very seriously by every co-worker, and 
we continually invest in safety equipment, experts, preventive 
maintenance, and training. We also have a certified safety 
committee which consists of co-workers from every level of our 
organization.
    Realizing the silica sand we are talking about today is 
used by foundries to make molten metal, and it is the same sand 
that is found on our beaches. I will only discuss a few of the 
ways this regulation will impact the foundry industry as my 
submitted testimony is much more detailed.
    Under the rule, the sharply reduced permissible exposure 
levels of 50 micrograms and an action level of 25 micrograms 
equates to the contents of a packet of Sweet'N Low sugar over a 
football field 13 feet high. This is the same air quality 
requirements of a clean room. Metal casting operations are 
simply not capable of achieving this level of dust control.
    The rule also mandates extensive and costly engineering 
controls. Metal casters will have to exhaust all feasible 
engineering and work practice controls to meet the expense of 
requirements before we are allowed to use respirators. This 
means we could be forced to spend well over $1.4 million with 
no guarantee they will work.
    There are certain operations in the foundry, such as 
grinding, where no matter how much is spent on controls, 
consistent compliance will not be achieved. Under the rule, 
regulated areas with control access and mandatory respirator 
usage will need to be established. This presents a logistical 
nightmare as it means that a forklift operator or a manager who 
may be in the area for just a minute will need to put on a 
respirator and will not be able to talk.
    Under the regulation, dry vacuuming is not allowed and a 
wet vac will now be required. This is wrong. As everybody 
knows, you never, ever want to introduce water in an area where 
molten metal is poured. An explosion could occur, and workers 
lives' would be jeopardized. Also, other metal objects which 
may be wet, might not even be wet, but may be wet, can no 
longer be recycled and will go into our landfills.
    OSHA drastically underestimates the cost to comply, and 
disregards the intent of SBREFA. In reality, the actual costs 
of the rule are 50 times higher than OSHA estimates, and in the 
final rule, OSHA estimated costs of compliance for the foundry 
industry was at $47 million or $32,000 per foundry. Our 
independent analysis shows the rule actually costs the industry 
over $2.2 billion, which equates to over $1 million per 
foundry.
    Additional costs include capital equipment, plant 
modifications, lost production time, recordkeeping, training, 
legal, medical, permits, engineering, monitoring, cleaning, and 
sand disposal expenses.
    In closing, although very well intended, our concern is 
that OSHA's silica regulation will cause significant foundry 
closures which will shift production offshore to countries like 
China, who have minimum worker safety rules.
    I firmly believe that this rule not only poses a threat to 
our national security, but it will also cause many good, highly 
skilled people from numerous manufacturing sectors to lose 
their jobs.
    Mr. Chairman, I would submit this is simply wrong. Thank 
you for the opportunity to be here today, and I would be happy 
to respond to any questions.
    [The statement of Ms. Herschkowitz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Walberg. Thank you, Ms. Herschkowitz. Dr. Melius, 
your 5 minutes are recognized right now.

  TESTIMONY OF JAMES MELIUS, DIRECTOR OF RESEARCH, LABORERS' 
      HEALTH AND SAFETY FUND OF NORTH AMERICA, ALBANY, NY

    Dr. Melius. Thank you, Honorable Chairman Walberg, Ranking 
Member Wilson, other members of the subcommittee. I greatly 
appreciate the opportunity to appear before you today at this 
hearing.
    As you said earlier, I was an occupational physician and 
epidemiologist. I currently work for labor-management 
organizations within the unionized construction industry, 
focusing on health and safety issues in construction.
    I have over 40 years of experience in occupational and 
environmental health. I have been involved, I have followed the 
development and public review of the recently released OSHA 
silica standard, submitted comments, and testified at the 
hearings, and submitted post-hearing comments on the proposed 
standard.
    One of my first patients, while working in an occupational 
medicine clinic in Chicago in the 1970s, was a young man with 
severe and rapidly progressive silicosis caused by his work in 
a foundry. He died while in his early thirties from this 
disease, leaving a young family.
    Throughout my career in occupational health, I have 
continued to encounter cases of silicosis among foundry and 
construction workers. As Representative Wilson has already 
introduced, the three bricklayers and family members of 
bricklayers are behind me, who experienced in their family or 
themselves silicosis.
    We recently did a small survey of our tunnel workers in New 
York and found nearly 40 percent of them--again, young tunnel 
workers--had developed early stages of silicosis as a result of 
their work building tunnels in the New York City area.
    Silicosis is not just a disease of the past. Workers 
continue to develop this disease and the illness can have a 
serious impact on their health, their ability to work, and on 
their families.
    I believe that OSHA has done an excellent job of developing 
the new silicosis standard. I would like to outline a few of 
the major reasons why I believe this regulation is a 
significant step forward in addressing this major occupational 
health problem.
    OSHA's review of the available scientific data and 
additional scientific studies presented during the rulemaking 
process provide a sound scientific basis for the new standard. 
They have identified key diseases, and the more recent 
scientific studies have provided the basis for the new standard 
that they put forward of 50 micrograms per cubic meter.
    The current OSHA standard, as has been mentioned, comes 
from the 1920s. It was based on a purely practical way of what 
could be done to deal with some of the extremely high exposures 
in some of the industries at that time, tunnel, quarry work, 
and so forth.
    That standard has not been changed until recently, and if 
that standard were still in place and left in place, one could 
have a very high rate of cancer, silicosis, and other silica 
related diseases among people working at those levels of 
exposure.
    Some of the extrapolations in the OSHA rulemaking process 
estimated up to 100 percent of construction workers exposed to 
silica would at the then-current standard develop silicosis. It 
is clearly unacceptable not to control this to a much lower 
limit.
    We do not view and I do not view the major problem to be an 
issue of enforcement. I believe the major problem is that the 
current standard in place is not adequate to prevent most 
silica-related illnesses. We need to change the standard, it 
has gone on for far too long.
    I think it is also important as some of the other witnesses 
have stated, that we need to have practical ways of controlling 
exposure. As I look at it, whether it is a half- full or half 
empty glass, I think a major step forward in construction is to 
have these tasks outlined and to make compliance easier in that 
industry.
    Up here, I am showing two of the pictures. These are 
people, bricklayers, and the effect of ventilation from the 
equipment they use. This is a milling machine that is used to 
take up old pavement. I do not know if you can turn that so it 
can be seen by the committee. Again, this is a before and after 
picture.
    The asphalt paving industry put a lot of effort into 
developing proper ventilation controls for their industry in 
order to be able to meet the silica standards. This work 
started long before the standard was even proposed.
    As you can see in the first picture, and if you have ever 
been behind a milling machine, you know how much dust is 
generated, and in the second picture, which I actually believe 
is a picture from Michigan, by the way, the Upper Peninsula, 
where some of this research was done, showing that with proper 
ventilation, ventilation being readily available through all 
manufacturers, you can control silica exposures. They were able 
to meet the new standard through this, and at a relatively 
reasonable price for doing so.
    I think this kind of development--I think one thing that is 
important in looking at costs and effectiveness is not only the 
fact that people will meet the standard, but they will develop 
better technology and better approaches to be able to do that.
    I think we have to take that into account as we look 
forward to what is going to happen as a result of this standard 
going into place.
    I will end my oral testimony here. I am out of time, I see. 
I would be glad to answer any questions later. Thank you.
    [The statement and additional submission of Dr. Melius 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Walberg. Thank you, Doctor, and thank you for 
bringing my thoughts back to Pure Michigan. Now, for your five 
minutes of testimony, we recognize Mr. Chajet.

  TESTIMONY OF HENRY CHAJET, SHAREHOLDER, JACKSON LEWIS P.C., 
    RESTON, VA, TESTIFYING ON BEHALF OF THE U.S. CHAMBER OF 
                            COMMERCE

    Mr. Chajet. Thank you, Mr. Chairman, and members of the 
Committee.
    Chairman Walberg. Turn your microphone on there, if you 
would, please.
    Mr. Chajet. Thank you, Mr. Chairman, and members of the 
Committee. We appreciate the opportunity to present the views 
of the U.S. Chamber of Commerce on this new OSHA rule impacting 
silica.
    If I may, I would like to start with the concept that this 
is about sand. Silica, essentially, is sand. One of the things 
that we do not see in these pictures is the hundreds of 
trillions of tons of sand that exists all over the world. This 
rule impacts millions of people, and perhaps millions of 
employment sites as well.
    Sand is an essential, critical element in a variety of 
consumer products, construction products, national defense 
products, home builder products. It is extensively used. I 
think OSHA lists over 30 industry groups, and there are many 
more that are impacted by this rule. At least two million 
people work in areas where sand or silica is present, 
disturbed, or used. This is a massive rule.
    That is a little bit of perspective. Much of this product 
or material is used in truckloads. The amount of silica dust 
that it would take to exceed the exposure limit is an eye drop 
in this room. One eye drop in a teaspoon dispersed over the 
size of this room would essentially exceed the exposure limit. 
It is an infinitesimal small amount of dust.
    In addition, it is not just the fact that we are concerned 
about silica, we are concerned about respirable silica, tiny, 
tiny, small particles of silica. Those are the ones that can 
get into a lung and can cause a significant hazard, no question 
about that.
    One case of silicosis, one fatality, one illness, is one 
too many, and we have to prevent them. We are preventing them. 
We have submitted for the record, and I would hope you would 
allow our statement to be placed in the record, a graph from 
the Centers for Disease Control. I thought we were going to 
have a copy of it to show. It demonstrates the success of 
American industry and OSHA in controlling and reducing silica 
related disease.
    These are data taken from the Health and Human Services' 
Centers for Disease Control Agency that collects mortality. You 
will notice that just in our lifetimes, we have reduced 
successfully the number of cases from silica related disease. 
We are approaching zero. It is a wonderful public health 
success story. It is a story that I am proud to have been a 
part of for my 35 years of occupational safety and health 
experience, helping companies to understand their obligations 
and to work to continue this trend.
    This was established with the current standards in place. 
In fact, the current standards, as you stated in your opening, 
Mr. Chairman, not only do we see OSHA not enforcing them, they 
have a compliance problem, 30 percent or so or out of 
compliance, more exposure than the current problem, but a 
significant portion, perhaps two-thirds of that, is two to 
three times over exposure.
    We have a compliance problem that is not going to be solved 
by a new set of regulations that took this many pages of the 
Federal Register to explain, not to mention the thousands of 
attachments to it. That is going to be an impossibility for any 
small to medium sized business to comprehend.
    We have this regulation, and it is based on a series of 
fantasies. The very concept of respirable dust is written out 
of this regulation by a new definition that says it is whatever 
dust is collected by the sampler. So, we are not even 
regulating the hazard. We are regulating an inaccurate sampling 
and analysis method that is the best OSHA could do.
    In light of that fantasy, there are additional ones in the 
assumptions for how you calculate risk here. According to OSHA, 
there are thousands, if not hundreds of thousands, of people 
who should be recorded with disease, and they are not there. We 
do not have a silica epidemic.
    There are many problems here with this rule. OSHA needs to 
refocus on reality. We have not seen a focus on drug and 
alcohol abuse in the workplace, one of the leading causes of 
fatalities, and it is impacting our entire workforce and our 
families. Why not a focus where we need it?
    Thank you, Mr. Chairman. I would be glad to answer 
questions.
    [The statement and additional submission of Mr. Chajet 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Walberg. Thank you. Thank you to each of the panel 
for the time and attention you gave to present your 
perspectives, valuable for us to hear as well as to see 
evidence of ways we have achieved success, as well as ways that 
we can achieve further success.
    Having said that, let me recognize for the opening five 
minutes of questioning for our panel, Mr. Rokita. You are up on 
deck right now.
    Mr. Rokita. Thank you, Chairman. I appreciate having this 
hearing. Mr. Chajet, you have practiced law, you have 
experience practicing administrative law, correct?
    Mr. Chajet. Yes.
    Mr. Rokita. This was an informal rulemaking?
    Mr. Chajet. It was an informal rulemaking, although the 
cross examination was cut off.
    Mr. Rokita. Why?
    Mr. Chajet. I have no idea. I personally was standing 
asking questions, and OSHA short-circuited my ability and 
stopped me from asking questions.
    Mr. Rokita. And you have no idea why? Have you ever 
experienced that in your practice before?
    Mr. Chajet. I have never experienced my cross to be 
stopped.
    Mr. Rokita. In just a couple of seconds, try to explain for 
the record the difference between an informal rulemaking and a 
more structured formal rulemaking or negotiated rulemaking, and 
how this is different, and why in the world given the nature of 
an informal rulemaking you would be cut off from your 
testimony.
    Mr. Chajet. Well, this is a hybrid kind of rulemaking, but 
there is an administrative law judge present, and the 
administrative law judge in the OSHA world controls the hearing 
process and procedure. The administrative law judge, I am sure, 
with OSHA's approval and consent or discussion, cut off cross 
examination.
    It was particularly egregious because the other side, the 
advocates for the rule, were allowed to question until they 
were done. The industry side was cut off. That was only one 
problem.
    All of these kinds of rulemakings rely on data, 
transparency, and truth, and that is what you want, a record 
that is truthful with transparency.
    Mr. Rokita. That did not occur here?
    Mr. Chajet. We did not have that here. We did not have that 
here.
    Mr. Rokita. We have a rule with some kind of proceeding, 
sounds like a kangaroo court, based on untruths, half-truths, 
lack of transparency, facts that were not allowed to come into 
evidence, and testimony that was literally cut off. Is that 
accurate?
    Mr. Chajet. It is accurate. We had the leading laboratory 
expert perhaps in the world from Bureau Veritas testifying 
about the inability to measure. He was responded to by an OSHA 
staff witness who runs their laboratory who said to him would 
you believe that we have this secret data that we have not 
published that proves we can measure at this level, and I sat 
back and could not believe my ears.
    This was not a legitimate rulemaking.
    Mr. Rokita. They admitted to secret data? What do you mean?
    Mr. Chajet. They did. During the hearing--
    Mr. Rokita. I used the pronoun, I hate doing that. I used 
``they.'' Who is ``they'' again?
    Mr. Chajet. I am sorry, I did not hear you.
    Mr. Rokita. Excuse me. I used the pronoun ``they.'' Who is 
``they'' again? I said ``they used secret.''
    Mr. Chajet. OSHA staff.
    Mr. Rokita. All right. Thank you very much. Ms. 
Herschkowitz, I appreciate your personal story, that of you and 
your family. Can you go into detail on how OSHA has failed to 
take into account public perspectives like yours, and how this 
is harmful to a free Republic?
    Ms. Herschkowitz. Wow, where to begin. The issue with 
OSHA--we did testify before OIRA. They absolutely totally 
ignored the 50 pages, I think, of testimony that we submitted.
    Mr. Rokita. What do you mean ``ignored?''
    Ms. Herschkowitz. Well, they did not take into account all 
the costs, but just to give you an example, here is an OSHA 
fact sheet. I pulled this off the Internet on April 6. This is 
after the rule was passed. We spoke very strongly about the 
costs that this will entail.
    On this fact sheet, it says, ``The annual cost to a firm 
with fewer than 20 employees would be less, averaging about 
$550.'' The average cost for our employees we viewed to be 
$143,000. This was the exact facts I gave to the OIRA Committee 
when I went and talked before them.
    It also says, ``The proposed rule is expected to have no 
discernable impact on U.S. employment.''
    I think this speaks volumes. The other thing is why can we 
not just go with respirators first because the worker is 
breathing clean air. OSHA insists right now upon putting and 
measuring air respirators outside of the air respirator, and we 
have to put money in for dust collection systems that we feel 
will not work.
    They also ignore the fact that you cannot just add one more 
dust collector, one more dust collector, and one more dust 
collector. It is not additive. You have to get a dust 
collector, and I am not even sure if that exists in today's 
world, that actually can take all that sand out, and it will 
easily be over $1 million.
    So, that is how we were disregarded by OSHA.
    Mr. Rokita. Thank you very much. Mr. Chairman, without 
objection, I would ask for inclusion of the document Ms. 
Herschkowitz was referring to into the record.
    Chairman Walberg. Hearing no objection, the document will 
be included.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rokita. My time has expired. I yield back.
    Ms. Herschkowitz. Thank you.
    Chairman Walberg. I thank the gentleman. I recognize the 
ranking member, Ms. Wilson, for her five minutes of 
questioning.
    Ms. Wilson. Thank you, Mr. Chair. Dr. Melius, your 
testimony says that the permissible exposure limit for 
construction that has been in place since 1971 was based on a 
recommendation from the Public Health Service in the 1920s. Was 
that recommendation from the 1920s based on preventing 
silicosis or was it simply based on the feasibility of 
ventilation controls available in the 1920s?
    Dr. Melius. Well, it was to some extent to prevent 
silicosis but the level set was what the Public Health Service 
staff at the time felt was feasible to be met, that could be 
met in the industries where they had noted the high silica 
exposures. So, they recognized that it would not completely 
prevent all cases of silicosis in those industries.
    Ms. Wilson. Some people argue that reported cases of 
silicosis are declining in recent years, and there is not a 
significant risk. Does this argument exclude other health 
outcomes other than silicosis that have been well established, 
lung cancer, renal disease, respiratory diseases, such as COPD?
    Dr. Melius. Yes, it does exclude those. We do not have the 
good surveillance mechanisms for following or detecting those 
diseases and reporting, and certainly not ones that would 
relate those to silica exposure.
    The Bricklayers and Allied Craftworkers actually have 
submitted some data to the record for the OSHA hearing showing 
lung disease--deaths from lung disease among their workforce, 
their members, actually had stayed steady throughout, up until 
close to the present time. So, they do not see a decline among 
their members. That would include both silicosis and chronic 
obstructive pulmonary disease.
    Ms. Wilson. Is there a significant risk from silica dust 
exposure today? What is that risk, and what is wrong with the 
argument made by the U.S. Chamber that OSHA is chasing a nearly 
insignificant risk?
    Dr. Melius. Well, I think it is--the risk we know is 
recurrence of silicosis, lung cancer, kidney disease, and 
chronic obstructive pulmonary disease. These are all serious 
health problems and can cause people to die related to their 
past work or current work with silica.
    So, these are obviously significant to the people who 
suffer. You have heard the testimony, and the three people 
sitting behind me can testify, too.
    They are also significant in the sense that among the 
populations exposed, one of the problems with the death 
certificate surveillance that Mr. Chajet showed from the 
Centers for Disease Control, those are death certificates, and 
silicosis is not included on many death certificates, even 
among people that have it. We do fewer autopsies now.
    I think there is an estimate actually from the State of 
Michigan, where they have done a statistical analysis and 
showed over 85 percent of people with silicosis do not have 
silicosis put on their death certificate. It is just an 
artifact of how we practice medicine now and how many autopsies 
and what happens when a person dies in terms of what the doctor 
writes on the death certificate.
    Now, we also know that the amount of exposure to silica is 
decreasing overall in terms of the people exposed because many 
of the industries that use silica, particularly the foundry 
industry, has decreased. The number of foundries and number of 
foundry workers in this country have gone greatly down, and 
that was a major group at risk of silicosis.
    So, without foundries themselves, the ones that currently 
exist, we could still very well have a high rate of silicosis, 
maybe not in all foundries but many foundries, even if they 
meet the previous standard.
    Ms. Wilson. One witness argues that all that is needed is 
more OSHA enforcement to address the problem. If there was 100 
percent enforcement wall to wall for each facility each year, 
would that eliminate the need for more protective standards?
    Dr. Melius. No. It certainly would be a change, but it 
would not, because the current standard is not protective. 
There will continue to be a number of cases of silicosis that 
occur. I mean, OSHA has done an estimate of that.
    I think we know from all the health risk assessments that 
have been done for this standard, again, peer reviewed by 
outside scientists, that this is not protective, and even with 
comprehensive and complete enforcement, we would continue to 
have not only silicosis cases, but cases of lung cancer, kidney 
disease, and the other illnesses related to silica exposure.
    Ms. Wilson. Thank you, Mr. Chair.
    Chairman Walberg. I thank the gentlelady. I recognize now 
the gentleman from Michigan, Mr. Bishop, for your five minutes 
of questioning.
    Mr. Bishop. Thank you, Mr. Chairman, and thank you for your 
attention to this matter, bringing this before the Committee, 
and thank you to the panel for being here today and providing 
your testimony.
    Mr. Brady, I was interested in hearing all of this 
testimony. It is amazing to me what is going on here and how 
pervasive it is across the government and the economy. We hear 
the same concern in just about every section of the economy 
that is regulated by the Federal government.
    Your testimony highlights some of the safety concerns that 
engineering controls create, such as water sprays on a tile 
roof. It seems to me that we might be solving a problem and 
creating another. Can you explain how the final rule fails to 
adequately address the safety concerns?
    Mr. Brady. I think there are a number of different areas 
during construction that OSHA has not paid attention to, and 
that is the practical side of--I am in Illinois, Michigan, 
Indiana, Midwestern States, we are building throughout the 
year.
    There are freezing temperatures. If they are required to 
add water to the exterior, whether it is brick cutting, block 
cutting, tile roof installation, it potentially creates, 
certainly on a 6-12 pitch roof, a hazard probably more or equal 
to the possibility of adding water to cutting those tiles, 
again depending on the pitch of the roof and the installation 
procedure.
    So, there are many elements of the rule that actually could 
create hazards in trying to protect from the silica.
    Mr. Bishop. Maybe it is just me, but that seems like a 
pretty obvious problem. Was that ever taken into consideration?
    Mr. Brady. In our remarks about the rule, and we commented 
on a number of these issues, we feel that OSHA just did not 
look at and pay attention to the number of comments that we 
made, did not incorporate them into the rule on a practical and 
technologically feasible and economically feasible position.
    Again, we are willing to work with OSHA on these, and we 
were willing, and we have put hours and hours and hours in 
working with OSHA, but they ignored most of what--I will say I 
will give them a bit. They took adding water to dust or the 
dirt on a floor before you sweep it, they took that out, and if 
any of you try to sweep a mud floor, it is not so easily done. 
So, those are the types of practical things that they ignored 
in great part.
    Mr. Bishop. Okay. Thank you very much. So many questions. 
Ms. Herschkowitz, I noted your discussion about the respirator 
and some of the protective equipment that is out there. Has the 
quality of that equipment changed over the years? I know this 
rule has been kind of lingering since, what, 1990. Has it 
changed over the past couple of decades?
    Ms. Herschkowitz. Oh, absolutely. The old respirators used 
to be very bulky, very uncomfortable, and there has been a lot 
of research on respirators which has turned into much better 
products, much more comfortable for the person to use.
    What we would like under this regulation is to use the 
respirators first versus going with the expensive dust 
collectors.
    Mr. Bishop. I would assume that the current respirators are 
far better at doing what they are supposed to do than the 
previous iterations.
    Ms. Herschkowitz. By far. OSHA does measure the air quality 
outside of the respirator, which is not indicative of what a 
worker is breathing. A worker is actually breathing clean air, 
and we do use respirators in our facilities for certain jobs 
right now.
    Mr. Bishop. Okay, great. Mr. Chajet, did I pronounce that 
right?
    Mr. Chajet. Chajet.
    Mr. Bishop. Thank you. We were just talking about personal 
protective equipment. OSHA seems to dismiss the use of personal 
protective equipment as an effective way to protect employees 
from silica exposure. Is that true? Can you share with me your 
thoughts on that?
    Mr. Chajet. Congressman, the agency has really lost its 
focus on protecting people. I am not sure what they are 
protecting. The state of respirator science--I do not even call 
them respirators, they are mini-environments. Some of these 
devices are very comfortable hard hats that put fresh air over 
a person's face. It is filtered or it is clean. They are 
comfortable, and they do not provide any pressure. Others are 
paper, incredibly high-quality, simple, like painter mask-type 
respirators.
    Again, I am not so sure what you call ``respirators'' other 
than mini-environments. When we have such effective technology 
for protecting people, why should we discount it? Why should we 
not credit an employer who is protecting their employees with 
this technology?
    It is the way of the future, and OSHA is living in the 
past.
    Mr. Bishop. Thank you, sir. Mr. Chairman, I yield back.
    Chairman Walberg. I thank the gentleman. I recognize the 
gentleman from Wisconsin, a northern State as well, Mr. Pocan.
    Mr. Pocan. Thank you, Mr. Chairman, and thank you to the 
witnesses for being here. I think this is my third hearing on 
silica.
    I have to admit sometimes I start to lose my patience a 
little as we go through these hearings when I hear some of the 
comments. I am not a lawyer. I am not the CEO of a big 
business. I have a small specialty printing business, a union 
shop. I have done every job that any employee in my business 
has done over the years. I only make money when I have 
customers and when I have employees to do the work because I 
cannot do everything. I value my employees far more than I 
value my equipment.
    We just bought a brand new UV printer that was about 
$75,000. I can buy a cheaper solvent printer for $25,000, but 
that puts organic compounds into the air, causes health risks. 
There are other good things about the printer, but clearly, 
part of the decision I made was I want to make sure my 
employees are not exposed to problems.
    I have heard a lot of bad math and slippery language during 
this debate. So, if I can maybe just try to address some of 
this and ask a few questions.
    Mr. Chajet, I am going to pass on you right now and ask the 
people who are employers questions. I know you raised a lot of 
concerns about sand. Honestly, my guess is as a lawyer for the 
U.S. Chamber, the closest you are going to get to exposure to 
sand is if you go on vacation to the Caribbean.
    Let me ask Mr. Brady a question, if I could, specifically. 
There is another construction company, a medium-sized company 
in Illinois, Englewood Construction, and the director of 
operations there, if I could just read his quote real quickly 
in the time I have. Let me just get to the relevant part maybe.
    He said, ``Many of the new silica guidelines formulize 
existing best practices. Elements of the silica rule will 
require real change and will take time, effort, and yes, money, 
to implement consistently. It is easy to see the cost of 
protection for our workers, but how do you put a price on 
workers' health and long-term well-being?'' He goes on a little 
longer.
    I really sympathize with that because I understand. I think 
you have employees and I am sure you go to their family events, 
you watch their kids graduate, and everything, and I know that 
is an important part of it. One of the things you said is you 
talked about up to 3.2 million construction workers and these 
physicals they are going to have.
    The reality is it is only if they have 30 days on a 
respirator, and that is only a fraction, a very small fraction 
of the jobs that require it, and it is every three years. I put 
that in the ``slippery language'' category. It is not quite 
where it is at.
    I would ask the question, how do you value what a life is 
worth? What is a life worth? It is a tough question.
    Mr. Brady. Yes, it is a pretty tough question. It is not a 
question of whether or not our industry wants to protect lives. 
It is a question of whether or not technologically or 
economically this rule is feasible. I would not get into an 
argument whether or not any protection is worth a life. It is 
whether you can provide it. Somebody mentioned earlier, 93 
percent, silica related illnesses have been reduced by 93 
percent in the last--
    Mr. Pocan. I am going to steal my time back. Again, there 
are fewer people in the industry, so that same graph that the 
person who is afraid of the beach sand has--also shows the 
employee numbers in those fields have gone down. Again, it is a 
little bit of slippery language.
    Mr. Brady. There is--
    Mr. Pocan. Let me reclaim back my time, Mr. Brady. I only 
have a minute and a half left and I want to ask another 
question of Ms. Herschkowitz. Of the pictures that you have 
here, you do a lot of work for submarines, I see. I have a 
company in my district that does a lot of work for submarines.
    How much is too much that we would have to spend if we knew 
we could fix something on a submarine to make it healthier for 
the people, the service members, what amount would be a fair 
amount, that you would say is a fair amount to put in to 
protect the people who are on that submarine? Is there a dollar 
figure you would say, $50,000, $100,000, $500,000?
    Ms. Herschkowitz. I think workplaces should be very, very 
safe. We do a lot to make it safe.
    Mr. Pocan. Per foundry, what it is going to cost, and OSHA 
said $32,000. You are saying $1 million. I am asking 
specifically what would be the dollar figure you would assign 
that you would be willing to spend to make a submarine safe for 
the people who work on a submarine? A dollar question.
    Ms. Herschkowitz. First of all, all the components we put 
on the submarine are very, very--
    Mr. Pocan. Do you have an amount you would recommend? How 
about how many sugar packs worth of silica in that football 
field that is 13 high would you say is acceptable? How many 
sugar packets are a problem? You want to talk about the safety, 
but you do not actually want to answer the question. I have 
asked you very direct questions.
    Let's go back to the submarine question. I want you to 
answer. How much would you spend to make a submarine safe? It 
is a dollar question.
    Ms. Herschkowitz. It is a question in terms of putting--
    Mr. Pocan. You do not want to answer the questions.
    Chairman Walberg. The gentleman's time has expired.
    Ms. Herschkowitz. I am trying to answer the question.
    Mr. Pocan. No, you are not.
    Chairman Walberg. I will now recognize the Ranking Member 
of the full Committee, Mr. Scott, for his questioning.
    Mr. Scott. Thank you, Mr. Chairman. Dr. Melius, can you 
give us a little history about how long we have known about the 
dangers of silica?
    Dr. Melius. Well, the history of our knowledge of silicosis 
resulting from quarry and other kinds of work like that go back 
to Roman times. Socrates recognized it. It goes back up into 
the Italian Renaissance, 1600s. A doctor named Ramazzini 
described it also throughout, up through the centuries; and 
then in the United States, we recognized it back in the early 
part of the 1900s, last century, because we had epidemics of 
silicosis among quarry workers, particularly up in Vermont. We 
had tunneling workers, West Virginia, other areas, New York, 
and among foundry workers.
    So, it was recognized in the early part of the century in 
the United States as a public health problem, in fact. Again, 
we talked earlier about that is where the standard came from, 
originally came from, that is being used.
    The knowledge goes way back, and certainly we are well 
aware of it in the United States for many years.
    Mr. Scott. Did I understand you to say that the chance of 
coming down with silicosis if you are exposed at the present 
level is about 100 percent?
    Dr. Melius. Yes, sir. If you go look at the construction 
standard and you look at how that might project out in the 
number of recurrence of silicosis, people exposed to that 
standard, 100 percent of them could develop silicosis because 
of that exposure.
    Mr. Scott. Can you describe the health problems that 
result?
    Dr. Melius. Yes. The obvious health problem we mostly talk 
about is a stiffening fibrosis of the lungs. The lungs just 
became so stiff that a person can no longer breathe, so a very 
horrible disease to experience. We also have other illnesses, 
lung cancer, which has been relatively recently, in the last 30 
or 40 years, recognized as a risk from silica exposure, as well 
as kidney disease and other pulmonary disease from that 
exposure.
    So, it is not just silicosis but these other diseases that 
are a very significant risk for anybody working with silica.
    Mr. Scott. What kind of health cost savings can be 
generated if you reduce exposure?
    Dr. Melius. They would be very significant given that--I 
cannot give you an exact number, but the cost to treat a case 
of lung cancer is in the hundreds of thousands of dollars a 
year, if they survive for any period of time. Silicosis, a 
person with severe silicosis, medical costs can be extremely 
high with repeated hospitalizations and the kind of medication 
and other care they may need, same with the chronic obstructive 
pulmonary disease and kidney disease.
    These are very high and they are very devastating for 
families to experience.
    Mr. Scott. I have been advised that OSHA estimates an 
annual net benefit over the next 60 years of $3.8- to $7.7 
billion, after an annual cost of the rule of about $1 billion, 
a net benefit of 3.8 to 7.7. What kind of underlying numbers 
would they be looking at?
    Dr. Melius. What they would be looking at would be the 
medical costs, the cost of loss of employment for the people 
that are affected by those diseases who no longer work, so they 
are going to be getting Workers' Compensation, Social Security 
Disability, other forms of income assistance, hopefully.
    So, the main costs would be a loss of productivity, people 
would lose their trained workforce, skilled workforce.
    Mr. Scott. Some businesses have to pay this in terms of 
higher health care costs, health care premiums, and Workers' 
Compensation, is that right?
    Dr. Melius. Absolutely.
    Mr. Scott. Now, someone talked about the costs. Could you 
tell me if you are aware if the National Asphalt Paving 
Association has taken a position on the rule?
    Dr. Melius. Yes, I am. That is the group I work with 
closely on both looking at controlling exposures to asphalt as 
well as controlling silica exposures, the two pictures we have 
up there. They are supportive of the rule. They submitted 
comments. OSHA was responsive to those comments regarding the 
requirement for respirators. When the rule came out, they came 
out in support of that rule.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Walberg. I thank the gentleman. Now, I recognize 
the gentlelady from the beautiful State of North Carolina, Ms. 
Adams.
    Ms. Adams. Thank you, Chairman Walberg and Ranking Member 
Wilson, and I would also like to thank our witnesses for 
testifying today.
    Before I get started, I want to just make a very simple 
point about the Department of Labor. One of their primary 
reasons for existence is to improve working conditions for 
working people. It is clear that the purpose of this rule is to 
improve the working conditions of some of our most vulnerable 
employees.
    As we know, exposure to silica is a serious health hazard, 
and while many have pointed to reductions in silicosis as a 
reason to oppose this rule, I believe these generalizations are 
very misguided, especially for low-wage workers who are often 
workers of color.
    Silica dust-related illnesses have a greater impact on low-
income and ethnic minority groups than on the job populations, 
and it is especially true for the Latino community.
    Dr. Melius, with that in mind, can you speak to the 
positive impact this rule will have on low-wage earners and 
communities of color who are disproportionately affected by 
silica-related illnesses?
    Dr. Melius. Yes, actually there is data that show--
actually, from the State of Michigan--that African-American 
workers are at a much higher risk of developing silicosis. So, 
what you are saying is what we can actually see in some of the 
data that we do collect about the risk of silicosis.
    This rule should benefit everybody that is exposed to 
silica. We also know African-American, Hispanic, and Latino 
workers tend to work in so-called ``dirty jobs,'' where there 
is more exposure.
    If this rule is put in place and completely enforced, 
properly enforced, we should see great benefits to them because 
they may often work in so-called ``the dirtiest jobs,'' the 
jobs with the higher exposures. Hopefully, if this rule goes in 
place, they will be protected as well as everybody else that is 
exposed to silica.
    Ms. Adams. Thank you, sir. It is your opinion that this is 
a step in the right direction in addressing racial health 
disparities?
    Dr. Melius. Absolutely.
    Ms. Adams. In addition to saving many lives and reducing 
illnesses among workers who are exposed to silica dust, this 
rule will also create billions in benefits. Dr. Melius, can you 
explain on what some of those benefits will be and how they 
will play into the industry's ability to capture savings 
associated with safer and healthier employees?
    Dr. Melius. Yes, certainly. There will be reduced medical 
costs for caring for employees, reduced either through health 
insurance or Workers' Compensation for those employees.
    There will be a better ability to retain highly trained and 
skilled workers in the workplace but not having to replace 
people because they are becoming ill, your most experienced and 
trusted workers, they will be able to work for a longer period 
of time, which will help maintain and improve productivity for 
the industries involved, whether it is general industry or in 
the construction industry.
    Ms. Adams. Thank you very much, sir, I appreciate. Mr. 
Chairman, I am going to yield my time back.
    Chairman Walberg. I thank the gentlelady. I recognize the 
gentleman from California, Mr. DeSaulnier.
    Mr. Desaulnier. Thank you, Mr. Chairman. First, a question 
for Ms. Herschkowitz. I was just handed this document that I am 
told is part of a trade association that you are a part of, 
``Control Silica Exposure in Foundries,'' are you familiar with 
this?
    Ms. Herschkowitz. I have seen it, but I have not read it. I 
just saw it this morning.
    Mr. Desaulnier. Mr. Chairman, I would like to enter it into 
the record.
    [The information follows:]
    Extensive material was submitted by Mr. Desaulnier. The 
submission for the record is in the committee archive for this 
hearing.]
    Mr. Desaulnier. It seems at a very quick look that the 
organization has done a lot of work in this regard. Again, just 
preliminarily looking at it, it seems there are some 
contradictions. Just having sat here and listened to the 
contradiction between Dr. Melius and the rest of you about we 
are all on the same page we want to use cost-effective 
implementation and feasibility.
    Dr. Melius, in terms of the feasibility, and you are a 
public health expert, I appreciate Mr. Brady's comments about 
everybody wanting to invest effectively on reducing the public 
health issue and the graph that has been presented by the 
Chamber. Do you have comments on how feasible, you think, 
recognizing you are a public health person?
    Dr. Melius. I believe that the control recommendations that 
are directly contained in the standard or that will be 
developed in response to the standard are very feasible to 
control and achieve the levels that are involved. OSHA and 
everyone involved spent a lot of time looking at it.
    I mentioned the silica milling machines. That work started 
almost 10 years ago in terms of getting ready for the 
possibility of a new standard. The foundry document that you 
mentioned goes back, I believe, to 2010, 2008, I cannot 
remember directly, but again, people recognizing that there may 
be a standard coming and getting prepared for it, the kind of 
ventilation that is on this kind of saw (in front of the 
witness at the table) is also something that people have been 
working with to demonstrate that there are practical ways of 
meeting the standard, and they are cost-effective.
    Mr. Desaulnier. Mr. Brady, I appreciate meeting with you, 
and you know about my concern, coming from Northern California, 
about the need for affordable housing. In California, since 
2008, the standards went to the higher standards in terms of 
prevention.
    Do you have any comments about that or any of your 
California colleagues? Knowing many people in the home building 
industry, as when I met with you in my office in Richmond, 
California, they are able to work in a fairly--I am choosing my 
words here--aggressive regulatory atmosphere and still make a 
handsome profit and provide the product that we need.
    Mr. Brady. Well, I think even in our conversation, again, 
this is not about providing--the issue is not only health. It 
is about providing a product for a price. In your district 
alone, starter homes are $450,000. You know that better than I 
do.
    Mr. Desaulnier. I do not think I could find a $450,000 home 
right now.
    Mr. Brady. You have to have balance in regulatory reform. 
You have to have balance whether or not you can provide it 
economically but even technologically, whether or not--as 
somebody said, silica is in soil. As we are grading alot, 
silica is kicked up in soil. How do you economically and 
feasibly or technologically provide that at an affordable cost 
and be able to provide a product that consumers can buy?
    Mr. Desaulnier. I appreciate that having heard that 
argument in the air quality field for 20 years when it came to 
sulfur, lead, MTBE, but we were able to pass regulatory 
investments that the affected community came up to the 
standards, and we provided off ramps if they were not making 
it.
    So, my question was we have had the more aggressive 
prevention at Cal/OSHA in place since 2008, and the industry 
has coped with it. Granted, they will have to come up to these 
higher standards in terms of the micrograms, but have you had 
any input from your members as to what a disadvantage that is? 
Honestly, I have not heard it, and it has been in place for 8 
years.
    Mr. Brady. Again, no, dollar for dollar, no. I understand 
from our members this is a very cumbersome compliance issue. 
Our industry seems to be targeted specifically to this rule 
because they will have a huge impact on the cost to provide 
product.
    Now, again, over the last 40 years, our industry--drywall 
mud is a good example where our industry took silica out of 
drywall mud. It is no longer a hazard. Our industry continued 
to do that. Yes, maybe there are fewer workers, but they are 
also building better product, and that is the type of 
environment, cooperative environment, that we would like to 
work with OSHA to make practically, economically, and 
technologically feasible.
    Mr. Desaulnier. Appreciate that. I would love to have 
further discussion with you and OSHA in doing that. I just want 
to note that there are Canadian provinces that are actually at 
25 micrograms, so we might look at that and see how cost-
effective that has been as well. Thank you, Mr. Chairman.
    Chairman Walberg. I thank the gentleman. I now recognize 
myself for my five minutes of questioning.
    Ms. Herschkowitz, it is not up to you really how much it 
will cost for a safe submarine component, is it? Who is it up 
to decide how much it will cost? Would you not say it is the 
Federal Government and the contracting process and Electric 
Boat, and ultimately, you have to find a way to produce that 
product if they say so, and if you cannot, someone else will 
have to produce it, correct?
    Ms. Herschkowitz. Absolutely.
    Chairman Walberg. I think that is a crucial point we need 
to make here.
    Ms. Herschkowitz. I also want to make the point that in our 
foundry, it is safety first. Anybody can stop a heat if they 
feel it is unsafe. We have safety leaders at every levels of 
the organization. We have spent an awful lot of money on safety 
and are very, very proud of our safety record, and I value our 
employees very much.
    Chairman Walberg. And I would expect that. Those people who 
work for you provide the opportunity to get a contract with 
Electric Boat.
    Ms. Herschkowitz. It is not easy.
    Chairman Walberg. It is not easy to get.
    Ms. Herschkowitz. It is not easy.
    Chairman Walberg. They ultimately decide what a cost will 
be for safe. They expect that component to work.
    Ms. Herschkowitz. Certainly, and I never ever want to 
sacrifice cost for safety.
    Chairman Walberg. OSHA suggests that the company, talking 
about the brick industry as was pointed out, can pay the 
necessary engineering alterations out of the first year's 
profits. Could your company pay for the necessary compliance 
activity out of the first year's profits as OSHA has suggested 
in its preamble?
    Ms. Herschkowitz. No, we have four separate companies. We 
opened a foundry last just because we could no longer buy 
castings in this country, and we are probably the most 
vertically integrated sand foundry in the country. We view our 
foundry as a cost center, not a profit center. According to the 
AFS, the cost of putting these regulations in place is 273 
percent of the profits of a company, but it is even higher for 
a foundry, it is even much, much higher for us.
    Chairman Walberg. In that case, the castings that cannot be 
purchased now for your components, your products, your 
production, if this goes through, the castings cannot be 
produced in this country, again, since you will be there, 
correct?
    Ms. Herschkowitz. Right, conceivably.
    Chairman Walberg. Conceivably. It goes back to that 
creative tension between jobs, the necessity of jobs, having 
the successful ability to create, sustain, and carry on versus 
putting in safety, and we want to go as close as possible 
meeting that need in both ways, but there definitely are cost 
issues that will influence whether you can do them.
    Ms. Herschkowitz. That is correct. The foundry industry 
standard PEL of 100, 70 percent of the foundries are able to 
meet, 30 percent are not. I personally, and I am not speaking 
for the AFS right now, I have personally as a 25-year foundry 
woman have never heard of a case of silicosis, much less within 
our own companies.
    Chairman Walberg. Mr. Brady, construction is fundamentally 
different than other professions. Your testimony discusses how 
Table 1 of the regulation does not adjust appropriately for the 
modern construction workforce. Can you expand on the concerns 
of the industry as a whole with Table 1?
    Mr. Brady. Well, Table 1, I think, has 18 points to it. Our 
industry is so complex. I will have 100 people on a 
construction site during the three months that I am building, 
on a home building. Remodeling is entirely different. A 
remodeling project is a good example of where Table 1 does not 
really answer some of these questions, so they default to the 
very stringent--there are no remediation issues potentially on 
the remodeling side, so they default to the very restrictive 
compliance issues, because they cannot comply with throwing 
water into a home when they demolish a wall, they cannot throw 
water into that wall, so they have to use other means.
    This rule really sets up our members, from builder, 
remodeler, to the associates, to the thousands of members 
throughout the country, for failure, because technologically, 
we will not be able to comply with this rule.
    Chairman Walberg. How does the specialty contractors that 
often work concurrently with you add to this mix, specifically 
the multiemployer citation policy that OSHA has? How does that 
add to additional problems in compliance?
    Mr. Brady. Well, again, we are a fairly transient business. 
I am a general contractor so I use small business 
subcontractors. Their employees move seasonally, they move from 
employer to employer, they move around. It is going to be very 
cumbersome, number one, if I have to test--say I am a brick 
mason and I have to test my employee today, I have to do a 
baseline medical exam, three months later, they are working in 
Indiana with another contractor.
    I think the rule suggests they have to be baselined, so to 
say they are only going to be tested every three years is a 
miscalculation because our business is transient and people 
move, so just kind of with the logistics of these specialty 
contractors and their employees, it is going to be very 
difficult to comply with.
    Chairman Walberg. I thank you. My time has expired. Now, I 
will recognize the Ranking Member, Ms. Wilson, for her closing 
comments.
    Ms. Wilson. Thank you, Chairman Walberg, for calling 
today's hearing, and giving us the opportunity to discuss this 
very important rule. I want to thank the witnesses for your 
testimony, and thank you for coming.
    At every committee hearing, every markup, every press 
conference, I endeavor to remind my colleagues of our purpose 
as a subcommittee member. This is the Workforce Protections 
Subcommittee, and that means our job is to protect our workers.
    I stand with my colleagues in strong support of DOL's 
updated silica dust standard. We know that the science is 
clear. Workers exposed to silica dust at levels allowable under 
the previous OSHA silica standard are at risk from developing 
deadly and debilitating diseases, such as silicosis, lung 
cancer, and renal disease.
    The Department of Labor took a long-awaited strong step 
towards helping the 2.3 million workers exposed to silica dust 
by finalizing its updated rule on March 23, 2016. We know that 
controlling silica dust is feasible, controlling silica dust is 
a well understood and time-tested proposition.
    Wet the dust down or vacuum it up. Water or air. States 
like California and New Jersey already have in place standards 
and regulations requiring companies to use water systems or 
vacuums to control dust. Nationwide, many companies put their 
workers' health first by controlling silica dust with existing 
technology. New equipment now comes equipped with dust controls 
of water spray hookups.
    We know that this rule will protect worker health. Above 
all, we must judge this rule by its ability to protect our 
workers.
    As we have heard, once fully implemented, this updated rule 
will save more than 600 lives and prevent more than 900 cases 
of silicosis each year. OSHA's new standard includes 
engineering controls, training, prohibitions on dry sweeping, 
and medical surveillance that will do much to protect workers, 
especially in the building trades.
    There is strong support for DOL's updated silica rule to 
protect workers. I ask unanimous consent to enter into the 
record letters of support from the following organizations: 
United Steelworkers, the BlueGreen Alliance, Public Citizen's 
Congress Watch, American Association for Justice, American 
Public Health Association, Englewood Construction, Motley Rice 
LLC, America's Agenda, International Union of Bricklayers and 
Allied Craftworkers.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Wilson. I want to thank the witnesses again for being 
here today, and I want to thank those in the audience who have 
traveled to join us and your support for DOL's updated silica 
rule.
    I want to read a letter, part of a letter from Chuck Taylor 
of Englewood Construction, a mid-sized construction contractor 
based in Lemont, Illinois, with projects underway in eight 
States. He writes this: ``We realize it will take time and 
effort to implement the updated silica dust exposure guidelines 
and, in some cases, there will be an added cost, but we also 
believe we owe it to the workers who are so vital to the 
construction industry to do what we can to protect their health 
and their safety.''
    This is a very powerful statement from a company with skin 
in the game. How can you put a price on a human life or on 
their suffering, and on the suffering of their families? You 
just morally cannot put a price on that.
    I want to close with the words of Tim Brown, a worker with 
silicosis, who has joined us here today. You met him earlier. 
Raise your hand, Tim. Tim writes, ``We must prevent this from 
happening to any other bricklayers. To my fellow union members 
and to my unorganized colleagues, no worker should suffer what 
I have. The previous standard did not protect me, but if we 
enforce the new comprehensive rule, what happened to me will 
not happen to other bricklayers. We cannot let others suffer 
and become ill just for doing an honest day's work.''
    Thank you, Tim, for your words. Thank you, Tom and Dale, 
for bravely representing the millions of workers and families 
affected by silica.
    I hope our subcommittee can honor the lives of those who 
have become ill or have died from silica related illnesses and 
support this updated rule. I yield the remainder of my time, 
and thank you, Mr. Chair.
    Chairman Walberg. I thank the gentlelady. We would 
certainly identify with a number of your sentiments very 
clearly. There is no price for a life. It is important.
    Our responsibility is to make sure those lives are able to 
work in a beneficial way on the jobsite, and carry on and pass 
that on as well to family members for an opportunity that this 
country affords, unlike any other country in the world.
    I like that chart that was displayed earlier, put up on the 
board, and just for context again, at the very least, we can 
agree that is the direction we want to go, reducing silicosis.
    There might be variables in the numbers there, a little bit 
up, a little bit down, but that is the direction we want to go, 
and with the present standard, even with weaknesses in the 
actual enforcement of that standard, that is where we are at.
    Through all of the hearings that we have had, and it is 
correct, we have had multiple hearings on this silicosis rule, 
trying to press upon OSHA, the Department of Labor, that this 
is a serious consideration and that it impacts all of us in the 
room, all outside this room, on industry continuing to provide 
the products and the services that are necessary in this great 
country.
    It has been stated by a colleague of mine on the other side 
of the aisle that China is not doing these things. We do not 
want to go backwards to what China is doing. We do not want to 
give our products away to China either, or any other country. 
We want to continue to compete.
    This is not only the construction industry. This crosses 
the board, as we have heard about multiple industries with the 
impact of silica.
    There have been literally thousands of comments submitted 
to OSHA in the rulemaking process. Sadly, it is clear that some 
of those comments were rejected, not simply rejected because 
they did not make sense, but just out of hand, apparently for 
philosophical differences. That does not bode well for a 
standard that works.
    My father worked at U.S. Steel. I do not know whether he 
eventually got lung cancer as a result of that job, but he did. 
Ultimately, thankfully, due to experimental therapy, he not 
only lived but he went on to work until he was 73 years old as 
a machinist/tool and dye maker, because he loved it, and he 
would have worked longer if he did not wear out.
    I worked at that same plant, U.S. Steel South Works, on the 
south side of Chicago, out of high school. My second job after 
being a laborer there at the plant was as a furnace and ladle 
repairman's helper. It was an interesting job. I mixed a lot of 
mortar, I cut a lot of tile and bricks for those ladles that 
took the molten steel from the furnace, as well as got inside 
those furnaces when they were shut down to help repair those as 
well.
    I do not know, well, I guess I could say, I am sure that 
the policies that are in place right now probably were not in 
place back in 1969, at least fully. I am still breathing okay, 
and I hope that continues. I do not know about the ladle 
repairman, whether he is or not.
    We wanted to see things work well. That same plant, those 
same set of furnaces, ten minutes after I left work one night, 
left the locker room heading back to my car, half a mile from 
the Number 2 electric furnace where I worked, exploded. The 
entire locker room was gone. Everything around it was gone 
because a burn through from the heat went down into the sewer 
and blew up.
    I agree with you, Ms. Herschkowitz, we do not want to mess 
around with water around molten steel.
    These are considerations that OSHA ought to take into 
consideration. We are talking here about flexibility. We are 
talking about using controls, we are talking about using 
technology, we are talking about using tools, we ought to be at 
least to protect the worker, make a clean breathing space for 
them to carry on the necessary work they do, and not have a 
simple one-size-fits-all because we think it ought to be that 
way.
    That is why we had this hearing again today. It is after a 
fact. I am still hopeful that somehow, some way, we can make 
sure we preserve jobs, we preserve trades, we preserve futures 
for people in this country that they can pass on doing good 
work that needs to be done here and not someplace else.
    We can make sure there are foundry jobs available. Every 
one of you are safer as a result of that, maybe. We will not 
have those foundry jobs, we will not have those products built. 
That is what we wrestle with. It is not an issue of whether we 
discount life, it is an issue of whether we sustain life, and 
move industry forward to make America what it is. That is what 
this is about.
    I want to express my deep appreciation to my colleagues on 
both sides of the aisle. I want to express my appreciation to 
the witnesses, all four at the table, and everyone in this room 
today, for taking this seriously.
    I hope as a result, we will see OSHA maybe even step back 
and say we might want to listen to some of the information more 
carefully. We might have a better way that ultimately protects 
the individuals involved with this as well as the workplace.
    Having got on and off my hobby horse right now, and seeing 
there is no further business for the subcommittee today, the 
Committee stands adjourned.
    [Additional submission by Mr. Chajet follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
